No. 19-20

 

IN THE

Supreme Court of the United States

WILLIAM ANDREOLI ET AL.,

Petitioners,
v.

YYOUNGEVITY INTERNATIONAL CORP., ET AL.,

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,938 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 15, 2019.

 
   

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.
